No.

In the

Supreme Court ofthe Unit€d States
JONNAVEN JO MONALIM ANd MISTY MARIE
MONALIM,
Petitioners,
v.
HAWAIIUSA FEDERAL CREDIT UNION,
Respondent.

t

On Petition for a Writ of Certiorari
to the Supreme Court of the State of Hawaii

a

PETITION FOR WRIT OF CERTIORARI
Ge.nvVtcton DUSIN
Counsel ofRecord
DustN Lew On'n'tcps
55 Merchant Street, Suite 3100

Honolulu, Hawaii 96813
Telephone: (goe) rgz-zgoo
Facsimile: (soe) rzs-zzss

E'Mail: gdubin@dubinlaw. net
A ttorn ey

for

Pe ti tione rs

QUESTIONS PRESENTED

This Petition asks this Court to
important related questions of

decide two
American

constitutional law that have heretofore been
virtually ignored for more than two centuries while

hundreds of millions of property owners throughout
the United States through foreclosure deficiency
judgments have collectively forfeited countless
trillions of dollars in the equity in their properties,
causing equally divided state court decisions, and
equally divided federal court decisions applying state
foreclosure deficiency laws based on antiquated
English common law!
1. Does the centuries old English common law
procedure, adopted sub silentio within State
constitutions upon their admission to the Union,

which calculates the amount of a

foreclosure

deficiency judgment following sale confirmation by
subtracting from the amount owed the forced sale
price rather than the true market value of the real
property sold without an evidentiary hearing, violate
lhe Due Process Clauses of the Fifth and Fourteenth
Amendments to the United States Constitution, or
as Justice Douglas' admonished in GeLfefi v,
National City Bank of New York, 313 U.S. 221, 232'
ng $94I), are mortgagees "constitutionally entitled
to no more than payment in full"?
2. Does it violate the Due Process Clauses of the
Fifth and Fourteenth Amendments to the United
States Constitution for a State court, after deciding,
as now one-half have done, that the English common
law procedure for calculating a foreclosure summary
judgment is unfair and unjust, to nevertheless refuse
to apply its holding to the successful, prevailing
property owners in this case, the Monalims. on direct
appeal, or retroactively to refuse to apply its decision
to past property owners on collateral review where
that constitutional defense was properly raised?

LIST OF ALL PARTIES AND
CORPORATE DISCLOSURE STATEMENT

A. Parties Listed in Caption of Petition
Participating in this Proceeding

1. Jonnaven Jo Monalim and Misty Marie

Monalim (Husband and Wife)
2. HawaiiUSA Federal Credit Union

(Federal Credit Union with its principal
place of business in the City and County
of Honolulu. State of Hawaii)

B. Parties Not Participating

Apartment Owners of
Beach Villas at Ko'olina, a Community
Association, Inc. (a Hawaii Nonprofit
Corporation)

1. Association of

l1

TABLE OF CONTENTS

Questions Presented
List of All Parties and Disclosure Statement

I
1l

Table of Contents

iii

Table of Authorities

iv

Index to Appendix

vii

I.

JURISDICTIONAL STATEMENT

II. AUTHORITATIVE
III. STATEMENT

PROVISIONS

OF THE CASE

IV. LEGAL ARGUMENT SUPPORTING WRIT
V. CONCLUSION

1
1

2
8

23

Appendix: Exhibits 1-9
Certificate of Compliance

111

TABLE OF AUTHORITIES

CASES

Nafi^-ql R.o-L ^f OLo
4825o.2d 534 (FIa. 1936)

R.o*nqrrl rr

ucf

^^o-

n Trust Corn..
BFP v. Resol
(1ee4)
511 U.S. 531

fl^rr-t.t

16

9,24

Danforth v. Minnesota.
553 U.S. 264 e008)......

.25

First National Bank of Southeast Denver
v. Blanding,
885 P.2d 324(Colo. Ct. App.

1994).

Fuentes v. Shevin,
407 U.S. 67 1e72).......

.....16

19

Gelfert v. National tv Bank of New York.
..8,25,22
313 U.S. 22r 0e4r)

erv
50e u.s. 86 (1ee3)

fTaxa
24

Hoge v. Kane,
4 Haw. App. 533, 670P.2d 36

(1983).

In re Slizyk,
}OOG WL 2506489 (Bankr. M.D.
Mathews v. Eldridee,
424 rJ.S. 319 (1976).........

Fla.)..

.....13

..........16

19

w

Nicholas v. Pennsylvania State University,
227 F.3d 133 (3d cir. 2000)

Pearman v. West Point National Bank,
887 S.W.2d 366 (Xy. Ct. App. 1994).........

2I
... 15

Planned Parenthood of Se. Pennsylvania v. Casey,
2T
505 U.S. 833 (1ee2)......
Savers Federal Savines & Loan Association v.
Sandcastle Beach Joint Venture,
498 so.2d 519 (FIa. 1986).

I7

Sawada v. Endo,
57 Haw. 608, 561 P.2d L29L (tgZZ)... ... .
Sostaric v. Marshall,
201.4 WL 646t7 00.. . ...

T7

Wanslev v. First National Bank of Vicksbure,
566 So.2d 1218 (Miss. 1990)...
Wodehouse v. Hawaiian Trust Co.,
32 Haw. 835 (1933)............

HawaiiUSA Federal

t Union v. Monalim

Honolulu First Circuit Court,
Civil No. 10'1'1388 (unreported)
Appendix, Exhibits l and 2

V

....16

11

Hawaii Intermediate Court of Appeals,
20 L8 WL 2254707 (unreported)
Appendix, Exhibits 3 and 4
Hawaii Supreme Court,
L47 Haw.33,464 P.3d 821, reconsideration denied,
2020 WL 251L341 (unreported) (ZOZO)
Appendix, Exhibits 5, 6, 7, and 8

vl

INDEX TO APPENDIX
1. ORDER GRANTING

IN PART AND DEI\NTNG

IN PART PLAINTIFF HAWAIIUSA FEDERAL
CREDIT UNION'S MOTION FOR DEFICIENCY
JUDGMENT AGAINST DEFENDANTS
JONNAVEN JO MONALIM AND MISTY MARIE
MONALIM FILED JANUARY 12,2016 (Honolulu
First Circuit Court)
2. DEFICIENCY JUDGMENT AGAINST
DEFENDANTS JONNAVEN JO MONALIM AND
MISTY MARIE MONALIM IN FAVOR OF

PLAINTIFF HAWAIIUSA FEDERAL CREDIT
UNION (Honolulu First Circuit Court)
3. SUMMARY DISPOSITION ORDER (Hawaii
Intermediate Court of Appeals)
4. JUDGMENT ON APPEAL (Hawaii Intermediate
Court of Appeals)
5. OPINION OF THE COURT (Hawaii Supreme

Court)
6. CONCURRING AND DISSENTING OPINION
(Hawaii Supreme Court)
7. ORDER DEN|YING MOTION FOR PARTIAL
RECONSIDERATION (Hawaii Supreme Court)
8. JUDGMENT ON APPEAL (Hawaii Supreme

Court)
9. RULE

la (g)(il COMPLIANCE (Petitioners)

vll

PETITION FOR WRIT OF CERTIORARI

I. JURISDICTIONAL STATEMENT
This Court has jurisdiction to review this Petition
for a Writ of Certiorari, timely filed both
electronically and by Federal Express sent to the
Court on or before October 13, 2020, within 150
days, the concluding weekend and Columbus Day
Holiday excluded in the computation, challenging
the Order of the Supreme Court of the State of
Hawaii entered on May 15, 2020, denying
Petitioners' timely motion for partial reconsideration
of its 3'2 April 30, 2020 Opinion reversing the
Hawaii Intermediate Court of Appeals.
All Orders and Judgments below are set forth in
the Append.ix, and pursuant to Rule 14(g)(i) with a
Iist of where the federal question was raised.
This Court's jurisdiction is based pursuant to
Section 12576) of Title 28 of the United States Code,
Supreme Court Rules 10(b) and (c) and 13(1), and
COVID-19 related Orders entered by this Court on
March lg, 2020 (extending filing deadlines) and on

April 15, 2020 (modifications to paper

filing
13,
date
by
October
filing
timely
the
requirements),
the
2020 for this Petition having been confirmed by
Clerk's Office before filing.
II. AUTHORITATIVE PROVISIONS

The decision below is being challenged based on
the Due Process Clauses within the Fifth and
Fourteenth Amendments to the United States
Constitution (Fifth Amendmentl "No person . . . shall
be deprived of life, liberty, or property without due
process of law") (Fourteenth Amendment, Section 1:
"[N]or shall any State deprive any person of life,
liberty, or property without due process of law").
1

III. CONCISE STATEMENT

OF THE CASE

On June 24, 2010, Respondent (Credit Union)
filed a foreclosure complaint against Petitioners
(Monalims). An auction sale was confi.rmed on
December 22,2011.

Yet Respondent waited until January L2, 2016
before filing for a defi.ciency judgment even though
the Honolulu First Circuit Court's August 29, 20LI
Decree of Foreclosure in its paragraph 11, on its
page 3, drafted and proposed by the Credit lJnion's
-ounsel, had ordered that if it wanted a deficiency
judgment it must request the amount at sale
confirmation, which the Credit Union in 2011 chose
not to do, ostensibly waiving that right:

Plaintiff may request a deficiencY
judgment in its favor against

Defendant MONALIM, jointlY and
severally, for the amount of the

deficiency which shall

determined at the time

be

of
confirmation and have immediate
execution thereafter.

Following a February 23, 2016 hearing, the
Official Transcript of which is set forth in the
Appendix, Exhibit 1, the Honolulu First Circuit
Court granted the Credit lJnion's late motion,
entering a $493,282.04 deficiency judgment set for in
the Appendix, Exhibits 2 and 3, over the Monalims'
objections and the sworn Joint Declaration of the
Monalims themselves, set forth below, in purely
human termsl
1. We are Husband and Wife and

Joint

Borrowers/Defendants in

this action, and we each make the
within statements based upon our
2

own personal firsthand knowledge.
2. Since the confirmation of sale in
this foreclosure case in 20II, after

there being no deficiency judgment

requested

by the Plaintiff, in

reliance thereon after waiting
close to a year we abandoned our

plan to file a Chapter 7
Bankruptcy Petition to discharge
the otherwise anticipated
defi.ciency judgment and began the
difficult financial task of
rebuilding our family's lives.

Jonnaven started a roofing
company and Misty started a
cleaning business, and we have
begun saving for our Daughter's
college tuition.

3.

4. We have also started to rebuild
approximatelY
only a few months to go this June
2016 to clear the 2010 foreclosure
case offofour credit reports.

our credit, with

5. The news alone of this sudden
new filing has devastated our
lives, and the relief requested will
wipe out aII of the financial gains
that we have struggled to make
since the confirmation of sale,

which threatened defi.ciency
avoided through our intended

judgment would have been easily

filing of bankruptcy in late

2011
not abandoned its

had the Plaintiff
moving for a deficiency judgment
more than four years ago.
3

The Honolulu First Circuit Court refused to hold
an evidentiary hearing, not only on Petitioners'
objection based on laches, supra, but also to
determine what the fair market value of the
foreclosed property actually was at time of sale
confirmation for defrciency judgment purposes as

opposed to confirmation of sale purposes (t)
nolwithstanding the foreclosure blight and Q)
notwithstanding the Credit Union's credit'bid blight
on the foreclosed auctioned property, both blights
understood to deter competitive bidding and to
lower the sale price..

The Monalims' timely appealed the deficiency
judgment determination to the Hawaii Intermediate
Court of Appeats (lCa). Nevertheless the ICA on
May 17, 2018 entered a Summary Disposition Order,
affirming the deficiency judgment and an August 16,
2018 Judgment thereon, as set forth in the
Appendix, Exhibits 4 and 5.

The Monalims then sought

discretionary
certiorari review in the Hawaii Supreme Court.
The Monalims had argued six points on appeal to
the ICA, all of which the ICA had rejected:

1. Its deficiency judgment award
was contrary to the law of the
case, the lower court specifically
requiring in its foreclosure decree,

never amended, that any
deficiency judgment "shall" be
requested at time of sale
confirmationi

2. The Credit Union had waived

any deficiency judgment award by
not applying at time of the sale
4

confi.rmation as required ("shall")
in the lower court's foreclosure
decreei

3. The Credit Union was guilty of

laches, not applying for

a

deficiency judgment at time of the
sale confirmation as required
("shall") in the lower court's
foreclosure decreei

4. The Credit tJnion's delay in not
applying for a deficiency judgment

at time of sale confirmation as
required ("shall") in the lower

court's foreclosure decree
irreparably prejudiced the

Monalims who reasonably relied
upon the Credit Union's waiver in
fact,

5. The lower court's refusal to
conduct an evidentiary hearing
concerning the reasons for the
Credit Union's delay and

the

resulting prejudice caused to the
Monalims by the Credit Union's

delay in not applying for

a

deficiency judgment at time of sale
confirmation as required ("shall")
in the lower court's foreclosure
decree was irreparably an abuse of
discretioni and/or

6. The lower court's refusal to

conduct an evidentiary hearing to
determine the fair market value of
the foreclosed property at time of
the sale confirmation, thus
unfairly inflating the amount of
5

the resulting belated defi.ciency
judgment despite the foreclosure
and credit-bidding blight on the
foreclosed property, violated the
Fifth and Fourteenth Due Process
guaranties embedded within the
Hawaii State Constitution and the
United States Constitution and

various consumer

protections

proscribing unfair and deceptive
business practices, unclean hands,
the covenant of good faith and fair
dealing, and unconscionability.

By a vote of three to two, the Majority of the
Hawaii Supreme Court, reversing, as set forth in the
Appendix, Exhibit 6 and 8, joined the bare Majority
of other States through legislative or judicial action,
holding that the English common law procedure for
determining foreclosure deficiency judgments was
unfair and amounted to a forfeiture of vested
economic property rights without an evidentiary
hearing determining the true market value of
foreclosed properties at the time of a foreclosure sale
confirmation.

However, the Majority of the Hawaii Supreme

Court, although agreeing that the traditional
English common law method was unfair and
resulted in unconscionable forfeitures, held
nevertheless in two oblique footnotes, one on page 49
of the Majority Opinion at footnote 30, and the other

on page 52 at footnote 32, first that the prior

procedure did not violate Due Process, and second
that its decision was to have prospective effect only
and that the Monalims were not even to have the
benefit of their decision in their own direct appeal,
remanding only for an evidentiary hearing as to the
issue of laches.
6

The Minority Concurring and Dissenting Opinion
supported reversal for a laches evidentiary hearing
only, objecting however, claiming that it was
premature to decide the issue as to the fairness of
the English common law, judge'made procedure in
Hawaii, as set forth in the Appendix, Exhibit 7.

The Monalims timely sought

partial

reconsideration on three independent grounds.

First, the Monalims questioned how if

the

English common law procedure for determining the
amount of a foreclosure deficiency judgment was so
grossly unfair amounting to unjust enrichment,
resulting in a forfeiture of property owners' equity
without an evidentiary hearing as to true market
value, how is that not also simultaneously a
violation of and the unjust taking of property
without due process of law by denying property
owners a hearing on the true value of their forfeited
real property.
Second, the Monalims questioned how the new
Monalim Rule if applied retroactively would deprive
foreclosing plaintiffs of any reasonable reliance upon
the old Enslish common law procedure for
determining foreclosure deficiency judgments, which
otherwise would instead be rewarding lenders who,
unjustly enriched under the old rule, might, for
instance, even secure a double recovery, when in
equitable proceedings, which foreclosure proceedings
are, it surely is inconsistent to award reliance on
that which is by definition unjust.

Third, the Monalims questioned the fairness of
denying them the relief their successful appeal has
secured for others even if only applied prospectively,
denying to them the same relief, even their being the
prevailing parties, despite their money, time, and

effort expended in the appellate
7

process,

otherwise discouraging others to bring such appeals
in the first place.

Finally, seeking partial reconsideration,
the usual hobgoblin concern that
retroactivity would open the floodgates,
overcoming

overburdening the courts with the unmanageable
reopening of closed cases, the Monalims proposed a
reasonable middle ground, Monalim RuIe limited
retroactivity, to apply to the Monalims surely and to
every other party suffering a deficiency judgment
prior to the entry of this Court's April 30, 2020
Opinion only who specifi,cally raised that challenge
to the old rule in prior foreclosure cases.

That restriction would be relevant only to a
handful of cases, applying the doctrine of waiver,
precluding retroactivity where the issue was not
raised, another important consideration completely
absent in the Majority Opinion.
The Monalims' motion for partial reconsideration
was denied without comment, as set forth in the
Appendix, Exhibit 9.

IV. LEGAL ARGUMENT SUPPORTING WRIT

This Petition presents to this Court two pure
questions of law:
1. Is the adopted English common law procedure,

still utilized in one-half of the States, for

determining the amount of foreclosure deficiency
judgments without fi.rst conducting an evidentiary
hearing to determine true market value, not only
unfair and unjust, but unconstitutional in violation
of the Due Process protections within the Fifth and
Fourteenth Amendments to the United States
Constitution, as Justice Douglas in Gelfert, supra,
concluded?
8

2. Is the Hawaii Supreme Court's recent rejection
of its adopted, prior antiquated English common law
procedure for determining the amount of foreclosure
deficiency judgments without first conducting an
evidentiary hearing to determine true market value,

if

applied prospectively only an unconstitutional
deprivation of Due Process protections within the
Fifth and Fourteenth Amendments to the United
States Constitution if such relief is specifically
denied to the Monalims on direct appeal who are
otherwise the prevailing parties below, and denied to
all others on collateral review similarly situated who

on appeal have also heretofore raised

that

constitutional defense?
As Justice Oliver Wendell Holmes of this Court in
his Collected Legal Papers, p. 187 (fgZO), was fond of

warning:

It is revolting to have no better

reason for a rule of law than that
so it was laid down in the time of
Henry IV. It is still more revolting
if the grounds upon which it was
laid down have vanished long
since, and the rule simply persists
from blind imitation of the past.
There is perhaps no better example of such blind
imitation than the English common law procedure
for determining foreclosure deficiency judgments.
Foreclosure procedures were developed in English
Law Courts during the feudal period; see, e.g., BFP
v. Resolution Trust Corp., 511 U.S. 531, 537'38
(rgga).

During

the

1500s, English borrowers were

I

forced to convey title to lenders, getting title back
only upon repayment in full, otherwise losing all of
their equity in their property, Nelson and Whitman,
ReaI Estate Finance Law$ 8.8. (3d. ed. 1994).

English Equity Courts viewed foreclosures as
extremely harsh and began to require rights of
redemption and auction sales before lenders could
retake properties.

It was at that time that States were forming the
Union and other States being admitted, adopting the
English common law and with it

somewhat
procedures,
but
protective auction and redemption
without any equitable attention to how ultimately
foreclosure deficiency judgments were calculated.

That was also true regarding forced auction sales,
ordered by the English Equity Courts at a time when
there were no professional realtors, no MLS listings,
and auction sales took place in small villages were
property values were stable and known to everyone.

At first, "[dJuring the development of foreclosures
by sale in the United States, the high level of activity
in the real estate market justified the conclusion
that competitive bidding would assure fair prices,"
Wechsler, Through the Looking Glass: .Foreclosure
by SaIe as the De Facto Strict Foreclosure - An
Empirical Study of Mortgage .Foreclosure and
Subsequent Resale, 70 Cornell L. Rev. 850, 859
(rgsr).
Forced foreclosure auctions today however have
acerbated the deficiency judgment problem, creating
below market, forced auction sales by unexperienced
court'appointed foreclosure commissioners, lenders
often able to rig prices, for example, by credit
bidding, deterring competitive sales, infra, which is
10

expected

to worsen as a result of

COVID-19

economic pressures.

The Hawaii experience and its

recent

reformation of foreclosure deficiency procedures is
instructive,
During the Great Depression, Hawaii Courts
like state courts in most other jurisdictions grappled
with the perceived unfairness of forcing a foreclosure
auction sale in a down economy. Ultimately, a
common law practice was adopted whereby an upset
sale price was set at a judicially determined value
and the bidding at auction began at that price.

The Hawaii Supreme Court in 1933 in

Wodehouse v. Hawaiian Trust Co' 32 Haw. 835,
852-853 (fggg), announced what were thought to be
the appropriate procedures for selling properties at a
foreclosure sale and subsequently ratification at
confi.rmation, as follows:

In determining what an upset price, if
any, should be, or, at a later stage ofthe

case, whether

a sale should be

confirmed, it is the value at the time of
foreclosure and not the value at the
time of the execution of the mortgage
which is to be ascertained; and by value
is meant what the property will bring at
public auction or private sale (as may
be authorized or required by the terms

mortgage itselO after due
publication of notice and after a
reasonable time sufficient to permit

of the

efforts to interest all

reasonably

available prospective bidders.

Hawaii appellate courts since 1933

interpreted

Wodehouse

to

11

have

mean that "[t]he lower

court's authority to confirm a judilial sale is a
matter of equitable discretion" and "[i]f the highest
bid is so grossly inadequate as to shock the

conscience, the court should refuse to confirm." I{oge
v. Kane, 4 Haw. App. 533, 540, 670 P.2d 36, 40

(rgss).

The reasoning behind this rule was based partly
on ensuring that neither party would get a windfall,
and partly upon upholding the stability of judicial
sales, hence thought fair to aII sides. .IDrd.

Meanwhile, the fair or true market value of a
property for the completely separate purpose of
awarding a deficiency judgment after confirmation of
sale is a totally different issue however, tied not to
the auction price, but thereafter, after confrrmation

of sale to the market value of the property in
determining the loss if any to the foreclosing

plaintiff.

For example, assuming that a property with a
market value of $2 million having a $1.5 million
mortgage sold at a forced three-week newspaper
auction sale for a $1.5 million credit bid by a
foreclosing plaintiff, no others bidding against the
Iender for a variety of frequent reasons, the
foreclosing plaintiff would get the property plus a $.5
million monetary deficiency judgment against the
foreclosed borrower who in turn would lose a like
amount of equity.

Hawaii Courts, as most State courts until
recently, have matter-of-factly merely routinely
assumed when determining and enforcing
foreclosure deficiency judgments that the confirmed
sale price minus the net proceeds of sale controls and
mathematically determines by subtraction the
monetary deficiency amount awarded a foreclosing
plaintiff without taking into account and
L2

considering the evidence of true market value at
time of sale confirmation, again not for the purpose
of confirming the forced auction sale, but for the
second and separate purpose of calculating
thereafter the true loss of the foreclosing plaintiff as
well as alternatively any surplus equity rightfully
the property of the foreclosed borrower.

That judge-made procedure in Hawaii until
Monalim was recently decided, however, completely
ignored reality -' that due especially to the recent
housing market collapse because of the current
pandemic, foreclosing plaintiffs will have the ability,
for instance, to credit bid,, thus scarring away and

effectively depressing competition due to such
unused credit bidding ability and thus to in effect rig
auction sales, enabling foreclosing plaintiffs to
recover property at less than true market value,
while at the same time using their artificial auction
sales price to secure a windfall profit over and above
what is actually owed, even double or triple
recoveries, by adding onto its below-market purchase
a sizeable deficiency judgment, or even worse, to
wipe out a foreclosed borrower's surplus equity in
the property.

By the practice of "flipping" the property afber an
auction sale, that is, selling the property for true
market value thereafter, a foreclosing plaintiff
makes, often within a few months, more than what it
was actually owed, and especially more than what it
had even loaned or paid for any interim loan
assignment to it, or to sell to friends and relatives at
below market prices, sometimes being assigned by or

to it by the original foreclosing plaintiff for a
substantial discount not offered to the borrower, a
double unfairness, during the foreclosure process

itself.

13

is

frequently that borrowers are
penalized beyond what their foreclosing plaintiff
actually lost and subject to confiscatory monetary
judgments as well as forfeiture or their properties
and their equity therein, without a hearing to
determine their foreclosing plaintiffs actual loss and
thus their actual liability or any surplus equity of

The result

theirs.

Ironically, the very forfeiture unfairness that
English Equity Courts, in instituting the equitable
requirement of holding public auctions, sought to
remedy so as to save equity for English property

owners otherwise historically victimized by a
mortgagee's contractual rights of entry and a total
loss of their equity, which procedures our State
courts at fi.rst routinely adopted without legislation
as judge'made procedures, as did

Hawaii Courts, has

rather than protecting against forfeitures has now
resulted in forfeitures becoming in the majority of
States still the standard consequence of judicial
foreclosure auctions.

Those judge-made procedures, unthinkingly
rubber-stamping a mere mechanical calculation,

increasingly produced a harsh and unfair forfeiture,
harming this Nation's mortgage borrowers and
overall economy as well by selectively depressing
local real estate markets through the automatic
lowering of comparable sales based upon artificially
lower foreclosure forced sale prices.

At first, State courts such as in Hawaii
historically blindly allowed foreclosing plaintiffs
windfall profi"ts often through bloated deficiency
judgments, concluding that otherwise it would be an
unconstitutional impairment of capital and
interference with the right to contract under Article
I, Section 10, Clause 1 of the United States
Constitution, viewing money exclusively,
t4

and

not property, to be what lenders had bargained for in
the event of default.

this Court however in Gelfert, supra.
gave
authoritative approval to the
finally

In

1941,

of States seeking to

prevent
"sacrificial prices" by their regulating the amount of
deficiency judgments either by statute or by the
exercise of judicial equity jurisdiction.

constitutionality

Today, many State Legislatures have passed
anti-confiscatory defi.ciency statutes, requiring that
after a foreclosure auction their State courts must
hold a separate evidentiary hearing to determine the
"fair value," or "true value" as some jurisdictions call
it, of the foreclosed property which is not necessarily
the "auction price" even for instance if the "auction
price" does not "shock the conscience of the court."

And more recently, many State courts

have

shown equitable initiative by not waiting for their

State Legislatures to pass anti-deficiency statutes
protecting borrowers from what they have concluded
is gross unfairness and confiscatory forfeiture
procedures, especially when those forfeiture
procedures are judge'made in their jurisdictions, but
have acted on their own to correct obvious injusticesi
oorl

In Pearman v. West Point National Bank, 887
S.W.2d 366, 368 (Xy. Ct. App. 1994), the Kentucky
Court of Appeals on its own refused to allow a
mortgagee to recover any deficiency judgment
whatsoever where a foreclosing mortgagee that had
purchased the property at two'thirds of its actual
value was awarded a large deficiency judgment, and
then contracted to sell the property for slightly more
than the amount of money it had in the property
while seeking nevertheless to enforce its deficiency
award, that court concluding that the
15

foreclosing plaintiff breached the covenant of good
faith and fair dealing implied within every mortgage
contract, the breach resulting in non'enforcement of
the deficiency.

The same result occurred at the initiative of the
Colorado Court of Appeals in First National Bank of
Southeast Denver i.- Blanding, 885 P.2d 324 (Colo.
Ct. App. L994) (lack of good faith bid by a mortgage
holder requires full adjustment of the deficiency
amount).

In Wansley v. First National Bank of Vicksbutg,

566 So.2d I2L8, 1224 (Miss. 1990), the Mississippi
Supreme Court held that a foreclosing mortgagee
must show more than just a difference between the

net sale proceeds and the amount of

the
judgment,
indebtedness to be entitled to a deficiency
but must affirmatively show the property's true
value was insuffi.cient to satis$r what the mortgagee

had in the property, which requires both a prior
determination of adequacy of auction price after
confirmation, as well as true value of the property
for deficiency purposes after confirmation.

Whereas, while an inadequate winning bid price
may not be enough to defeat an auction sale, it is
considered nevertheless grounds for denying even in
its entirety a request for a subsequent deficiency
judgment today in many other jurisdictions on

equitable groundsi see, e.g.:
2506489 (Bankr. M.D.
Fta.) ("the amount for which mortgaged property
sells at during a properly conducted sale is neither
conclusive as to the value of the property nor the
right to a deficiency judgment")i

fn re Slizyk, 2006 WL

Barnard v. First National Bank of
County, 482 So.2d 534 (f'h. fg8e);
16

Okaloosa

Saverc -Federal Savings & Loan Association v.
Sandcastle Beach Joint Venture,498 So.2d 519 (Fla.
1es6).

Hawaii is now after Monalim in the bare
majority of States rejecting confi.scatory deficiency
judgment procedures, Sostaric v. Marshall, 234 W.
Ya.-449,766 S.E.2d 396 QOt+).In West Virginia the
State courts thereafter overturned those judge-made
deficiency procedures, only to have its State
legislature subsequently limit its ruling.

Otherwise, the results often are the extraction of
double or even triple recoveries at times, through
government guarantees against loss based on the
face value of mortgages even though sold by, for
instance, the FDIC or other government agencies,
often to insiders, at a steep discount, or from
nonrecourse insurance when in securitized trusts,

while forcing property owners into

otherwise

unnecessary bankruptcy filings, some borrowers
ironically entitled instead to surplus awards upon
flipping were the true market value of their

foreclosed properties considered, confi.scatory
procedures that might draw envy from the Mafia.

The resulting, additional unfair

financial

pressure on families foreclosed on due to such
confiscatory procedures have been especially
troubling for property owners in States having large
homeless populations.

Courts to the contrary have long recognized the
special importance to the social welfare of protecting

a family's "single most important asset," its

residence, not only from an economic point of view,
but also for its inherent social values, as its location
often determines where children go to school, where
families worship, where borrowers vote, where
17

family and friends reside, and where the elderly
spend their remaining years, in the absence of
which, especially as a result of both unfair and
unjust state foreclosure deficiency judgments,
borrowers may become dependent on public housing
and welfare, if available, and parental control may
be lost to drug use and drug trafficking, and
marriages often break up as a result, and where
suicides can resulti see Sawada v. Endo, 57 Haw.
608, 616, 561 P.2d r29r 0977).

This has truly become a national crisis, the very

kind of emergency invisibly eating away at

the

democratic fabric of this Nation by destroying our
middle class whose wealth has traditionally resided
in their homes, triggering the largest transfer of
wealth in American history to a relatively few often
with insider connections to either related
government agencies or investment banks.

Inconsistently, practically every American
jurisdiction has nevertheless inconsistently always
formally in their case law abhorred forfeitures
elsewhere, yet of the very kind happening almost
every day in our foreclosure courts,
There has now evolved a serious even split in
State jurisdictions today over foreclosure deficiency
judgment forfeitures, with a reported bare majority
of States now rejecting the English common law
mechanical foreclosure deficiency judgment
approach for awarding deficiency judgments without
a hearing to determine a foreclosing plaintiffs actual
loss, calling it "grossly unfair" and "confi.scatory" and
"abusive" and a "forfeiture" and an "unconscionable
windfall" and "unjust enrichment."

But how can such an obvious forfeiture

procedure with such harshness escape constitutional
18

scrutiny for much longer given the precedents of this
Court?

For example, in Fuentes v. Shevin, 407 U.S. 67,
81 OgZZ), this Court held that one paramount
purpose of the Due Process Clause and the
of an adequate hearing is "to protect [a
""q.tir"*ent
person'sl
use and possession of property from
arbitrary encroachment -- to minimize substantively
unfair or mistaken deprivations of property."

This Court, moreover, has recognized that there
may be later procedures available to return
wrongfully taken property, or provide damages for
the taking, but "no later hearing and no damage
award can undo the fact that the arbitrary taking
that was subject to the right of procedural due
process has already occurred." fd. at 82.

A timely hearing before property is taken from
an individual is a fundamental bedrock principle of
Due Processi see, e.g., Mathews v. Eldridge,424U.S.
3le (1e76).

The well-known test announced in Eldridge
determines the adequacy of a pre-deprivation
process by balancing "[flirst, the private interest that
will be affected by the official actioni second, the risk
of an erroneous deprivation of such interest through
the procedures used, and the probable value, if any,
of additional or substitute procedural safeguardsi
and fi.nally, the Government's interest, including the
function involved and the fiscal and administrative
burdens that the additional or substitute procedural
requirement would entail. Id. at 335.

The English common law judge'made deficiency
judgment procedures still used in approximately
one-half of the States today are clearly deficient on
all three ofthose grounds.
19

The private interest that

is

affected

is

an
individual's money, the most literal and unassailable
of all the definitions of "property" expressly grafted
onto the Due Process Clause.

in half the States
challenge following

Moreover, as described above,

there is no

procedure

to

confirmation of sale the value of property received by
a foreclosing plaintiff bidding at its own auction or
the foreclosing plaintiffs actual loss.

This opens the door to the type of multifaceted
fraudulent abuses that have become standard
industry practice nationwide with courts finding
themselves blindly looking the other way, allowing
themselves to become collection agencies for crooks.

A foreclosing plaintiff can easily sell the rights to
foreclose to a third party, and frequently does, which
then low balls its bidding at the auction, thereby
obtaining property at a steep discount.
Following such mortgage assignments, the same
third party continuingly the foreclosure proceedings
can then obtain a deficiency judgment based on the
original debt, rather than the amount paid to
acquire the debt or the true value of the property
transferred to it or to a related party ofits.
The way this process is applied clearly deprives
individuals of their money with no hearing at all to
determine the fairness of the amount taken, and no
procedure to rectifu that unfairness.
The risk of deprivations of Due Process through
such procedures is therefore great.

Similarly, there is obvious value in a hearing to
determine the fairness of the deficiency amount
20

based upon at least the true value of property
received versus the actual loss if any to the
foreclosing plaintiff, whereas the often'stated
concern regarding sanctity of judicial sales would not
be affected by this type of evidentiary hearing, not
involving re'opening of auctions.
The resulting violation of Due Process is not only
procedural, but substantive.

"Although a literal reading of the Clause might
suggest that it governs only the procedures by which
a State may deprive persons of liberty, for at least
105 years . . . the Clause has been understood to
contain a substantive component as well, one
'barring certain government actions regardless of the
fairness of the procedures used to implement them."'
Planned Parenthood of Se. Pennsylvania v. Casey,
505 U.S. S33 (1992) (citing Daniels v. Williams, 474

u.s.

327, 331 (1936)).

The application of substantive due process has
been the source of much debate in federal courts.
The former Justice Scalia, while a Judge of the
Court of Appeals for the Third Circuit, explained
that there are two types of state action that may be
challenged under this theory, legislative and nonlegislative acts. Nicholas v. Pennsylvania State
tIniversity,22T F.3d 133,I42 (sd Cir. 2000):

To summarize: when a plaintiff

challenges the validity of a legislative
act, substantive due process typically
demands that the act be rationally
related to some legitimate government
purpose. In contrast, when a plaintiff
challenges a non-legislative state action
(such as an adverse employment
decision), we must look, as a threshold
property
matter, to whether the
2T

interest being deprived is
"fundamental" under the Constitution.
If it is, then substantive due process

protects the plaintiff from arbitrary or
irrational deprivation, regardless of the
adequacy of procedures used.

In the mortgage foreclosure context, this Court

has recognized that allowing a foreclosing entity to
collect a double recovery is constitutionally
impermissible, again warning that "[m]ortgagees are
constitutionally entitled to no more than payment in
full." Gelfert,313 U.S. at 233. (Emphasis added.
Addressing deficiency judgments, this Court in
Gelfert_further noted that "[t]he 'fair and reasonable
market value' of the property has an obvious and
direct relevancy to a determination of the amount of
the mortgagee's prospective loss," id. at 234.

Concerning

the

process

of determining

a

defi.ciency judgment, especially during times of
economic depression, this Court concluded, although
the question here was not directly before it, id. at
232-233:

And so far as mortgage foreclosures are
concerned numerous devices have been
employed to safeguard mortgagors from

sales which

will or may result in

mortgagees collecting more than their
due . . . Underlying that change has
been the realization that the price
which property commands at a forced
sale may be hardly even a rough
measure of its value. The paralysis of
real estate markets during periods of
depression, the wide discrepancy
between the money value of property to
the mortgagee and the cash price
22

which that property would receive at a

forced sale, the fact that the price
realized at such a sale may be a far cry
from the price at which the property
would be sold to a willing buyer by a
willing seller reflect the considerations
which have motivated departures from
the theory that competitive bidding in
this field amply protects the debtor.

It is constitutionally unfair and a violation of

Due Process for a mortgagee to be able to suppress
auction sale prices and then recover more than it
should in the form of a deficiency judgment.

A mortgagee should not recover more than it is
owed by taking advantage of outdated procedures,

originally intended ironically by English Equity
Courts to protect borrowers and not to punish them.

The disparity between market value and a forced
sale price has been recognized in numerous cases
over the years, but has nothing to do with how a
defi.ciency judgment should be determined after a
confirmed sale.

Even in 1994, when the real estate market was
not nearly as depressed as it has now been during
COVID-19, this Court held:

[M]arket value, as it is commonly
understood, has no applicability in the
forced-sale contexti indeed, it is the
very antithesis of forced'sale value.
"The market value of .
a piece of
property is the price which it might be
expected to bring if offered for sale in a
fair marketi not the price which might
be obtained on a sale at public auction
or a sale forced by the necessities of
23

the owner, but such a price as would be
fixed by negotiation and mutual
agreement, after ample time to find a
purchaser, as between a vendor who is
willing (but not compelled) to sell and a
purchaser who desires to buy but is not
compelled to take the particular
piece of property." Black's Law
Dictionary 97t (eth ed. 1990). In short,
"fair market value" presumes market
conditions that, by definition, simply do
not obtain in the context of a forced
sale.

BFP v. Resolution Trust Corp.,511 U.S. 531, 537'38
(rgg+).

While the Hawaii Supreme Court in Monalim is

to be applauded for joining the bare majority of
States that have now rejected the English common
law foreclosure deficient procedures, supra, and all
of its resulting unconscionable forfeitures, its
rationale for doing so in Monalim is constitutionally
incomplete.

This Court now however in the context of this
Petition has for the first time a meaningful

opportunity to provide a long overdue Due Process
remedy for one of the darkest, low visibility,

continually neglected areas of

American

constitutional law.

And in so doing, this Court now has the ability
not only to apply the Monalim Rule to the Monalims
on constitutional grounds in this direct civil appeal,
Harper v. Virginia Department of Taxation, 509 U.S.
86 (1993), but to make the Monalim Rule a federal
constitutional rule, and to be applied prospectively to
all property owners and retroactively to all property
owners who have objected to their wrongful
24

deficiency judgments

on the

above-stated Due

Process grounds, Danforth v. Minnesota, 553 U.S.
264 (2008).

V. CONCLUSION
Resolving the conflict and equal division

in our

State Courts, and in our Federal Courts when
applying conflicting state foreclosure deficiency

judgment procedures, Due Process protections in the
United States Constitution compel this Court to
make the Monalim Rule a Federal Constitution
Rule, which is the purpose of this Petition.

For all of the above reasons, this Court should
grant review of this Petition, and in the protection of
this Nation's property owners declare the English
common law foreclosure deficiency judgment
procedures, whether judge-made or legislatively
adopted, retroactively unconstitutional throughout
the United States, including as applied to the
Monalims and to be applied retroactively in Hawaii,
as this Court deems just and constitutionally proper.
Respectfully submitted,
/s/ Gary Victor Dubin
GARY VICTOR DUBIN
Counsel ofRecord
Attorney for Petitioner

Honolulu, Hawaii
October 12,2020

25

